           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       EFFECTIVENESS OF THE
   SOCIAL SECURITY STATEMENT IN
   CORRECTING EARNINGS RECORDS

     August 2008   A-15-07-17089




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      August 27, 2008                                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Social Security Statement in Correcting Earnings Records
           (A-15-07-17089)


           OBJECTIVE

           Our objective was to assess the effectiveness of the annual Social Security Statements
           (Statement) in correcting individuals’ earnings records.

           BACKGROUND

           Section 1143 of the Social Security Act 1 requires that the Social Security Administration
                                            2
           (SSA) send an annual Statement of potential Social Security benefits to Social
           Security numberholders aged 25 and older who are not yet in benefit status and for
           whom SSA can determine a current mailing address. The Statement contains

           1. an estimate of potential monthly Social Security retirement, disability, survivor and
              auxiliary benefits and a description of benefits under Medicare;

           2. the amount of earnings paid to the employee or income from self-employment; and

           3. the aggregate taxes paid toward Social Security and Medicare.




           1
               42 U.S.C. § 1320b-13.
           2
            Your Social Security Statement, Form SSA-7005-SM-SI (11/07). See Appendix C for a sample
           Statement.
Page 2 - The Commissioner


The goals of the Statement are to:

1. Verify and ensure the accuracy of a worker’s earnings record. The Statement
   provides workers with an easy way of determining whether their earnings (or self-
   employment income) are accurately posted on their Social Security record. This is
   important because the amount of worker’s future benefits will be based on his or her
   earnings record.

2. Educate the public about Social Security programs. The Statement contains
   information about various benefits to which a worker may be entitled.

3. Assist in financial planning. The Statement contains information about planning for
   retirement. By reviewing this information, individuals can see if they are on track to
   meet their retirement goals.

The Statement instructs workers to call the SSA toll-free number to correct inaccurately
                                 3
posted earnings. SSA’s policy requires that teleservice center (TSC) employees
annotate the alleged earnings discrepancy on a computer screen and indicate whether
the earnings corrections resulted from a Statement inquiry or for other reasons. The
allegation is transferred electronically to a field office (FO) for development and
resolution.

In Fiscal Year (FY) 2007, SSA spent about $42 million to mail about 147 million
Statements to eligible workers. To assess the effectiveness of the Statements in
correcting earnings records, we

1. contacted TSC and FO personnel to obtain their perspective on the effectiveness of
   the Statements;

2. analyzed a sample of earnings corrections to determine whether SSA documented
   the Statement was responsible for the correction; and

3. requested that FOs conduct a special study to provide us with a reason for the
   earnings correction.

We conducted our audit between November 2007 and March 2008 at Social Security
Administration Headquarters; a TSC in Baltimore, Maryland; and the Wilmington,
Delaware, FO.




3
 SSA, Program Operations Manual System, TSC 18005.050 Procedure 3: Process Earnings Correction
on the Earnings Modernization, Item Correction System.
Page 3 - The Commissioner


RESULTS OF REVIEW
We were unable to determine whether SSA achieved one of its primary goals of the
Statement, that is, to verify and ensure the accuracy of a worker’s earnings records.
SSA did not maintain information on the effectiveness of the annual Statement in
correcting individuals’ earnings records. This concern is further supported by a prior
Government Accountability Office (GAO) report, 4 which indicated that SSA did not have
any way of knowing or reliably estimating how many of the reported earnings records
were corrected as a result of the Statement. However, GAO did not make a
recommendation to address this condition.

We contacted TSC and FO personnel 5 who suggested that the Statements were
responsible for 75 to 90 percent of all earnings corrections. Our preliminary analysis
showed significantly fewer corrections resulting from the Statements. Our analysis of
50 transactions showed that 7 transactions (14 percent) were initiated as a result of a
Statement inquiry. Four of these transactions resulted in $257,694 in additional wages
being credited to the individuals’ earnings records. The Statement was effective for
correcting these four individuals’ earnings records to ensure they receive the amount of
future benefits to which they are entitled. The other three transactions were not fully
developed because the numberholder did not provide the evidence requested by the
FO. For the remaining 43 sample items (86 percent), we found no indication the
Statements were responsible for initiating the requested corrections.

From this analysis, we determined that documentation was limited to a data collection
screen that captures earnings correction information in narrative form that cannot be
readily accessed and summarized. Also, TSC staff did not always comply with SSA’s
policy to indicate whether the earnings corrections resulted from a Statement inquiry,
and there is no similar requirement for FO staff. This noncompliance was addressed in
                           6
a June 2008 SSA bulletin that indicated TSC documentation was sometimes poor or
nonexistent.

Given that the available data may not fully reflect the utility of the Statement for
correcting earnings records, we requested the SSA Philadelphia Regional Office to
conduct a 1-week study of earnings corrections. The results showed that of the
76 earnings corrections processed, 61 corrections (80 percent) were made because the
Statement contained earnings that differed from the numberholder’s records. The other
15 earnings corrections were due to claims inquiries (14) and an Internal Revenue
Service notification (1).


4
 GAO’s Report to Congressional Requesters: Social Security Statements: Social Security Administration
Should Better Evaluate Whether Workers Understand Their Statements, GAO-05-192 (April 2005).
5
 TSC in Baltimore, Maryland; and the Manassas, Virginia; Wheaton, Maryland; Williamsport,
Pennsylvania; and Wilmington, Delaware FOs.
6
    June 2008 Item Correction (EM 2.8) Tips.
Page 4 - The Commissioner


In this instance, the study shows the Statements were effective in correcting earnings
records. Although these results cannot be considered a nationwide representation of
how the Statements impact earnings corrections, we believe the study shows there is
value in collecting this information so the Agency can assess the Statement’s
effectiveness as it relates to earnings corrections.

Given that SSA spends about $42 million to issue 147 million Statements annually,
information on the effectiveness of this investment would help SSA determine whether
it is achieving its intended goals; if not, the Agency can evaluate additional measures
that can be taken to optimize the utility of the Statement.

CONCLUSION AND RECOMMENDATIONS
The correction of inaccurate earnings is one of SSA’s primary goals for the Statement.
SSA does not have a process in place to accurately and reliably measure the
effectiveness of the Statements in correcting earnings records. The screen that is
annotated when earnings corrections are requested as a result of the Statement is
narrative and does not allow SSA to collect usable statistical information. Therefore,
SSA cannot determine the number of earnings corrections made as a result of
individuals receiving their Statements.

To facilitate achieving its goal of verifying the accuracy of workers’ earnings records,
SSA should consider transitioning the narrative field to something that can be queried
and measured. As such, we recommend SSA develop a process to document the
reasons for earnings corrections and measure how effective the Statements are in
correcting earnings records.

AGENCY COMMENTS

SSA agreed with the recommendation. The full text of the Agency’s comments is
included in Appendix D.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sample of Social Security Statement
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
FO          Field Office
FY          Fiscal Year
GAO         Government Accountability Office
OIG         Office of the Inspector General
SSA         Social Security Administration
Statement   Social Security Statement
TSC         Teleservice Center
U.S.C.      United States Code
                                                                            Appendix B

Scope and Methodology
To meet our objective, we performed the following steps.

•     Examined prior Government Accountability Office reports on Social Security
      Statements (Statement).

•     Interviewed staff at the Wilmington, Delaware, field office (FO); Baltimore,
      Maryland, Teleservice Center (TSC); and Division of Earnings Records
      Operations to discuss the earnings correction process.

•     Obtained a list of earnings corrections initiated in Fiscal Year 2007. This
      listing identified 569,751 corrections by Social Security number. 1

•     Selected a random sample of 50 initiated earnings corrections and reviewed
      the Earnings Modernization Item Correction System screen to determine
      whether the Report of Contact indicated the correction was the result of the
      Statement.

•     Reviewed the Earnings Modernization (2.8) Clearance Reports for the
      Philadelphia Region to identify FOs with the greatest number of earnings
      corrections.

•     Requested the Philadelphia Region conduct a special study of earnings
      corrections processed March 17 through 21, 2008. This study was performed
      by two FOs in each of the six area offices in the Region. The purpose of this
      study was to determine whether the corrections were the result of the
      Statement.

We conducted our audit between November 2007 and March 2008 at Social
Security Administration Headquarters; a TSC in Baltimore, Maryland; and the
Wilmington, Delaware, FO. The entities audited were the Office of Central
Operations and the Deputy Commissioner for Systems. We found the data used
for this audit were sufficiently reliable to meet our audit objective.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a




1
    There could have been multiple corrections associated with a Social Security number.
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                                   Appendix C

Sample Social Security Statement




                     C-1
C-2
C-3
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:     August 18, 2008                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject    Office of the Inspector General (OIG) Draft Report, “Effectiveness of the Social Security
           Statement in Correcting Earnings Records” (A-15-07-17089)—INFORMATION


          We appreciate OIG’s efforts in conducting this review. Attached is our response to the
          recommendation.

          Please let me know if we can be of further assistance. Please direct staff inquiries to
          Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


          Attachment




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“EFFECTIVENESS OF THE SOCIAL SECURITY STATEMENT IN CORRECTING
EARNINGS RECORDS” (A-15-07-17089)

Thank you for the opportunity to review and provide comments on this draft report. One of our
goals for the Social Security statement is to verify and ensure the accuracy of a worker’s earnings
record. We encourage individuals to review their earnings history to avoid incorrect benefit
payments in the future.

Recommendation 1

Develop a process to document the reasons for earnings corrections and measure how effective
the statements are in correcting earnings records.

Comment

We agree. We will make changes in connection with our maintenance activity under Earnings
Modernization, estimated for implementation in January 2009. These changes will allow us to
measure the effectiveness of the Social Security statement by giving us the ability to determine
the number of earnings corrections made as a direct result of individuals receiving their Social
Security statements and contacting us about earnings discrepancies.




                                               D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Acting Director, Financial Audit Division, (410) 965-0433

   Steven Sachs, Acting Audit Manager, (410) 966-9738

Acknowledgments

In addition to those named above:

   Richard Wilson, Senior Auditor

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-07-17089.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
